                                                                                                               ,d
                                                                                                                    -
                                                                                                                    <:"
                                                                              re--.                 I

                                       /I
                                        .,(=. -
                                                                                                              _.    '-




                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: 1-05010009                                                                      Page 1 of 1



         In July 2004, the Office of Inspector General initiated a proactive review of participant support
         funds allocated to NSF awards. Participant support costs are expended to or on the behalf of
         participants or trainees (but not employees) for stipends, subsistence, travel and registration fees
         for conferences, symposiums andlor workshops. To that end, OIG randomly selected this award'
         for review.

         Our initial review of the documentation submitted by the university2 revealed several
         expenditures that did not appear to be allowable under the participant support guidelines! The
         preliminary inquiry was closed and an investigation was initiated in order to get hrther
         information from the university.

         Specifically, our office contacted the university for an explanation of (3) video cameras that were
         partially paid for with NSF grant funds during the award period. Additionally, there was a
         reimbursement to the University that did not appear to be credited back to the grant.

         The University provided additional documentation and explanation for the reimbursement and
         the purchase of the video cameras. According to the University, the purchase of the video
         cameras was essential to the research projects the students were working on. The university
         stated that it inadvertently omitted the documentation showing that the reimbursement was
         credited to the correct NSF account.

         After reviewing the supplemental documentation and explanation of expenditures, our office is
         satisfied that the university did not violate the participant support guidelines or misappropriate
         the grant funds awarded. Accordingly, this case is closed.




          ' Footnote redacted
           footnote redacted



NSF OIG Form 2 (1 1/02)
